IN
 NCUR
    RRED
       D-CO
          OST CONT
              C  TRAC
                    CT A
                       AUDIT
                           T:
Brid
   dge Con nstructio
                   on Modification
                                 n Settlem
                                         ment Ag
                                               greeme
                                                    ent
Cosst is Ade
           equately Supported

	
	
	
	
	
	
	
	
                            Rep
                              port No. O       12-002 | Novemb
                                       OIG-A-201             ber 7, 201
                                                                      11
	
	
	
	
	
	
	
	
	
	
	
	
	
	
	
	
      NATIONAL RAILROAD
      PASSENGER CORPOARATION
                                               Office of Inspector General

Memorandum
To:             Jeff Martin
                Chief Logistics Officer

From:           David R. Warren
                Assistant Inspector General, Audits

Date:           November 7, 2011

Subject:        Incurred-Cost Contract Audit: Bridge Construction Modification Settlement
                Agreement Cost is Adequately Supported (Report No. OIG-A-2012-002)

This is our report entitled Incurred-Cost Contract Audit: Bridge Construction Modification
Settlement Agreement Cost is Adequately Supported (Report No. OIG-A-2012-002). The
objective of this audit was to determine if the contractor had adequate documentation
to support the $3.6-million settlement agreement cost for contract modification 19 to
contract C-082-83501.1 Contract modification 19 was to cover the costs associated with
construction of a temporary utility bridge necessary to complete the overall project.
Amtrak management requested and we agreed to conduct this audit to ensure that
Granite Construction Northeast, Inc. (the contractor) had adequate documentation to
support the claimed costs agreed to in the contract modification. We also took into
account, while conducting the audit, that the results of our audit and of Amtrak’s
paying the settlement amount were preconditions for Amtrak to pursue its cost-sharing
agreement with the Long Island Rail Road related to the temporary utility bridge
construction. For a detailed discussion of our audit scope and methodology, see
Appendix I.




1Contract C-082-83501 includes by reference General Provisions for Construction Contracts that states in
Section 56, Audit and Inspection of Records, “Amtrak reserves the right to inspect, copy and audit the
records of Contractor and subcontractor(s) (“Contractor’s Records”) in connection with all matters related
to the Contract.” Modification 19 includes, by attachment, a Settlement Agreement and Mutual Release,
which stated that if any costs were disallowed by Amtrak, based on audit findings, the $3.6-million
increase in contract price would be subject to potential downward adjustment (Section A, Consideration
4).
                                                                                                    2

                              Amtrak Office of Inspector General
                    Incurred-Cost Contract Audit: Bridge Construction
             Modification Settlement Agreement Cost is Adequately Supported
                        Report No. OIG-A-2012-002, November 7, 2011

BACKGROUND
In December 2002, Amtrak entered into contract C-082-83501 with the contractor for a
firm-fixed amount totaling $66,340,000. The contract’s purpose was to reconstruct and
upgrade the ventilation shaft facilities servicing the four East River tunnels in Long
Island City, New York. The reconstruction required the contractor to temporarily
reroute electric power to ensure continued operation of Long Island Rail Road train
service. To temporarily reroute electric power, the contractor erected a temporary utility
bridge. Amtrak and the Long Island Rail Road, in a 1988 lease agreement, established
provisions to share the cost for infrastructure improvements that benefit both entities. 2
Both companies agreed that they should share in the costs of the construction of the
temporary utility bridge.

Since construction of the temporary utility bridge was not part of the original contract,
the contractor submitted a contract modification claim on April 14, 2004. The amount of
that claim was $5.3 million. Over time, the contractor submitted several requests for a
contract modification, but Amtrak refused these requests, citing insufficient
documentation.

On March 24, 2008, Amtrak and the contractor reached a claim settlement agreement of
$3.6 million. This settlement agreement is modification 19 to the contract. However,
payment of the settlement was dependent upon an audit of the claimed costs. Because
the contract allowed only a downward adjustment of costs, our work was limited to
reaching a conclusion on the adequacy of support for the $3.6-million settlement
amount. We reviewed the supporting documentation for the original $5.3-million claim
to ensure the accuracy of our conclusions.


$3.6-MILLION SETTLEMENT AGREEMENT AMOUNT WAS
ADEQUATELY SUPPORTED

Our analysis of the documentation supporting the original $5.3-million claim showed
that the $3.6-million settlement agreement amount was adequately supported. We


2The Pennsylvania Station New York Joint Facility Agreement between Amtrak and the Long Island Rail
Road is a lease agreement that dates to 1988. The Joint Facility Agreement provides guidance for cost
sharing, right of use, and division of the leased property.
                                                                                           3

                            Amtrak Office of Inspector General
                  Incurred-Cost Contract Audit: Bridge Construction
           Modification Settlement Agreement Cost is Adequately Supported
                      Report No. OIG-A-2012-002, November 7, 2011

questioned $1,082,043 of the $5,268,581 claim, but the resulting supported amount
exceeded the $3.6-million settlement amount. Our work showed that, of the $5,268,581
total,

   $4,186,538 in costs were fully supported as we reviewed time sheets, payroll
   information, invoices, and payment documents for material and equipment
   purchases, and subcontractor invoices.

   $857,493 in costs were questioned because they were for work performed under the
   contract as a whole and not specific to the contract modification. The contractor
   identified costs associated with the work performed under the contract modification
   using specific accounting codes; however, the accounting codes associated with
   these costs pertained to the original contract.

   $208,220 in costs were questioned because the contractor claimed $203,888 for direct
   labor, fringe benefits, and labor burden amounts that were coded for items
   specifically excluded from the contract modification costs. The remaining $4,332 was
   questioned because a subcontractor claimed overhead in excess of what the contract
   permitted.

   $16,330 in costs were questioned because the invoices did not support the claimed
   cost. The contractor claimed $316,330 for subcontractor work; however, the invoices
   totaled $300,000.



CONCLUSION

The contractor adequately supported the $3.6-million settlement amount. Amtrak can
now work with the Long Island Rail Road to reach agreement on the costs to be shared.



MANAGEMENT COMMENT
In commenting on a draft of this report, Amtrak management agreed with the report
conclusion. Amtrak’s letter in response to the draft report is reprinted as Appendix II.
                                                                                     4

                            Amtrak Office of Inspector General
                  Incurred-Cost Contract Audit: Bridge Construction
           Modification Settlement Agreement Cost is Adequately Supported
                      Report No. OIG-A-2012-002, November 7, 2011

Thank you for your cooperation during the course of this audit. If you have any
questions, please contact me (david.warren@amtrakoig.gov, 202.906.4742) or Matthew
Simber, Senior Director, Eastern Region (matt.simber@amtrakoig.gov, 215.349.1077).


cc:   D.J. Stadtler, Chief Financial Officer
      Diane Herndon, Managing Deputy General Counsel
      William Herrmann, Managing Deputy General Counsel
      Gordon Hutchinson, Controller
      Bernard Reynolds, Deputy Chief Logistics Officer
      Mark Wurpel, Deputy Chief Engineer, Construction
      Gary Eckenrode, Senior Director, Procurement
      Eve Nacinovich, Assistant Controller, Revenue Accounting
      Jessica Scritchfield, Senior Director, Internal Controls/ Audit
      Clavel Crump, Program Director, Fire & Life Safety
                                                                                        5

                            Amtrak Office of Inspector General
                  Incurred-Cost Contract Audit: Bridge Construction
           Modification Settlement Agreement Cost is Adequately Supported
                      Report No. OIG-A-2012-002, November 7, 2011

                                      Appendix I

                       SCOPE AND METHODOLOGY
This report provides the results of an Amtrak Office of Inspector General (OIG) review
of costs claimed under contract C-082-83501, modification 19. This report addresses
whether Granite Construction Northeast, Inc., had adequate documentation to support
the $3.6-million settlement agreement cost for the contract modification. We performed
audit work starting in April 2008 and completed it in August 2011. Our work was
delayed for a period of time due to several unsuccessful attempts by our office to obtain
supporting documentation for claimed costs from the contractor.

To determine if the contractor had adequate documentation to support the cost of
contract C-082-83501, modification 19, we reviewed accounting data and financial
information pertaining to the construction of the temporary utility bridge. We reviewed
supporting documentation for the original $5.3-million claim to provide assurance that
the final conclusion reached from our work was thorough and accurate. However,
because the contract allowed only a downward adjustment of modification 19 costs, our
work was limited to reaching a conclusion on the adequacy of support for the
settlement agreement amount totaling $3.6 million.

We reviewed time sheets, payroll information, invoices, and payment documents for
material and equipment purchases, and subcontractor invoices to support the
contractor’s claimed costs. We traced individual transactions from the contractor’s
accounting records to source documentation such as vendor invoices for materials, time
sheets and payroll records for labor, and subcontractor invoices for services provided.
We interviewed the contractor’s staff at their corporate offices in Tarrytown, New York,
and a field location in Long Island City, New York. We also reviewed Amtrak’s General
Provisions for Construction Contracts and Supplementary General Provisions for
Construction Contracts, Procurement and Materials Management’s files and applicable
policies and procedures, as well as the Federal Acquisition Regulation. Finally, we
interviewed Amtrak personnel to obtain an understanding of the contract and project
requirements.

Our work was performed in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
                                                                                        6

                            Amtrak Office of Inspector General
                  Incurred-Cost Contract Audit: Bridge Construction
           Modification Settlement Agreement Cost is Adequately Supported
                      Report No. OIG-A-2012-002, November 7, 2011

conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our conclusion based on our audit objectives.


Internal Controls

In conducting the audit, we assessed certain internal controls pertinent to the audit
objectives with respect to Granite Construction Northeast, Inc., policies and procedures.
Specifically, we identified and assessed internal or management controls including the
following:

   preventing multiple claims for the same costs,

   developing requests for equitable adjustment,

   determining fringe benefit and labor burden costs, and

   processing invoices for payment.


Computer-Processed Data

We relied upon computer-processed information from the contractor’s accounting
system. The contractor provided its final claim on a spreadsheet that included cost
categories for various work elements. For each cost category, the contractor provided
transaction analysis reports from its accounting system. The transaction analysis reports
contained detailed information for each cost transaction such as, for labor costs,
employee name and number, date worked, hourly rate, and other payroll information.
We recalculated costs claimed on the contractor’s spreadsheet from these transaction
reports. We then selected a sample of transactions for each cost category and traced and
verified the information to source documents. We did not review the overall system’s
data reliability. However, we tested 1,102 transactions and identified no exceptions. We
concluded that the test results for the transactions in question provided sufficient
assurance that we could rely on the computer-processed information to accomplish our
audit objective.
                                                                                        7

                            Amtrak Office of Inspector General
                  Incurred-Cost Contract Audit: Bridge Construction
           Modification Settlement Agreement Cost is Adequately Supported
                      Report No. OIG-A-2012-002, November 7, 2011

Sampling Plan

In conducting the audit, we selected samples from transaction analysis reports obtained
from Granite Construction Northeast, Inc.’s, accounting system. We selected a sample
of transactions from each transaction analysis report using sampling intervals based on
the number of transactions in the report. For example, we selected each transaction for
testing when the report contained 15 or fewer transactions. For transaction analysis
reports containing greater than 15, but 30 or fewer transactions, we selected every other
transaction for testing. The sampling interval increased as the total number of
transactions increased. For example, when reviewing transaction analysis reports with
greater than 200 transactions, we selected every 20th transaction.


Prior Audit Reports

We reviewed the following prior audit reports for potential relevance to our work:

Mass. Electric Construction Company Work Trains, OIG Audit Report No. 112-2003,
March 10, 2004

New York Tunnel Inspection Trains, OIG Audit Report No. 211-2003, February 20, 2004
                                                                      8

                      Amtrak Office of Inspector General
            Incurred-Cost Contract Audit: Bridge Construction
     Modification Settlement Agreement Cost is Adequately Supported
                Report No. OIG-A-2012-002, November 7, 2011


                              Appendix II

COMMENTS FROM AMTRAK’S CHIEF LOGISTICS OFFICER
                                                                       9

                       Amtrak Office of Inspector General
             Incurred-Cost Contract Audit: Bridge Construction
      Modification Settlement Agreement Cost is Adequately Supported
                 Report No. OIG-A-2012-002, November 7, 2011


                               Appendix III

                         ABBREVIATIONS


OIG    Office of Inspector General
                                                                            10

                            Amtrak Office of Inspector General
                  Incurred-Cost Contract Audit: Bridge Construction
           Modification Settlement Agreement Cost is Adequately Supported
                      Report No. OIG-A-2012-002, November 7, 2011


                                    Appendix IV

                                 TEAM MEMBERS

David R. Warren, Assistant Inspector General, Audits

Matthew Simber, Senior Director, Eastern Region

Cheryl Chambers, Audit Manager

Mark Scheffler, Senior Auditor

Thelca Constantin, Auditor

Dorian Herring, Senior Auditor

Michael P. Fruitman, Principal Communications Officer
                                                                                         11

                          Amtrak Office of Inspector General
                Incurred-Cost Contract Audit: Bridge Construction
         Modification Settlement Agreement Cost is Adequately Supported
                    Report No. OIG-A-2012-002, November 7, 2011

         OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission        The Amtrak OIG’s mission is to

                               conduct and supervise independent and objective audits,
                                inspections, evaluations, and investigations relating to
                                agency programs and operations;

                               promote economy, effectiveness, and efficiency within
                                Amtrak;
                               prevent and detect fraud, waste, and abuse in Amtrak’s
                                programs and operations;
                               review security and safety policies and programs; and
                               review and make recommendations regarding existing and
                                proposed legislation and regulations relating to Amtrak's
                                programs and operations.


Obtaining Copies of OIG     Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste,     Report suspicious or illegal activities to the OIG Hotline (you
or Abuse                    can remain anonymous):

                            Web:      www.amtrakoig.gov/hotline
                            Phone:    800-468-5469

Congressional and           E. Bret Coulson, Senior Director
Public Affairs              Congressional and Public Affairs
                            Mail:    Amtrak OIG
                                     10 G Street, N.E., 3W-300
                                     Washington, D.C. 20002
                            Phone:   202-906-4134
                            Email:   bret.coulson@amtrakoig.gov
